Report No. D-2007-071      March 15, 2007




          Air Force General Fund
      Disbursements as Reported in
  the Statement of Budgetary Resources
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DDRS                  Defense Departmental Reporting System
DFAS-DE               Defense Finance and Accounting Service Denver
DOV                   Disbursing Officer’s Voucher
GAFS-BL               General Accounting and Finance System – Base Level
GAFS-R                General Accounting and Finance System – Rehost
FMR                   Financial Management Regulation
OMB                   Office of Management and Budget
SBR                   Statement of Budgetary Resources
USSGL                 United States Standard General Ledger
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                           March 15,2007
MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
               SERVICE
SUBJECT: Report on Air Force General Fund Disbursements as Reported in the
         Statement of Budgetary Resources (Report No. D-2007-07 1)

       We are providing this report for review and comment. We considered comments
on a draft of this report when preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Finance and Accounting Service comments were partially responsive. We
request that the Central Site Director at Defense Finance and Accounting Service Denver
provide additional comments on Recommendation 2. by April 15,2007.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        We appreciate the courtesies extended to our audit staff. Questions should be
directed to Mr. Carmelo G. Ventimiglia at (3 17) 5 10-4801 (DSN 699-4801) ext. 275 or
Mr. M. James Herbic at (303) 676-3280 (DSN 926-3280). See Appendix D for the report
distribution. The team members are listed inside the back cover.
                                By direction of the Deputy Inspector General for Auditing:



                                         ~ a uf~ranetto,
                                               l          CPA
                                Assistant Inspector General and Director
                                  Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2007-071                                                    March 15, 2007
   (Project No. D2005-D000FD-0103.000)

        Air Force General Fund Disbursements as Reported in the
                   Statement of Budgetary Resources

                                 Executive Summary

Who Should Read This Report and Why? Air Force financial managers and Defense
Finance and Accounting Service (DFAS) personnel who have responsibility for financial
reporting of Air Force General Fund disbursements should read this report. It discusses
weaknesses in the audit trail for reporting Air Force General Fund disbursements in the
FY 2004 Statement of Budgetary Resources.

Background. The Defense Finance and Accounting Service provides finance and
accounting support to the Air Force. Defense Finance and Accounting Service Denver
(DFAS-DE) accumulates, processes, and adjusts Air Force General Fund disbursements
for reporting in the Statement of Budgetary Resources. During FY 2004, the Air Force
had 195 direct appropriations with disbursement activity. The financial reporting process
spans numerous operating organizations and financial systems. DFAS-DE reports the
status of Air Force budgetary resources, including the outlays related to those resources,
in the Statement of Budgetary Resources. Disbursements comprise most of the reported
outlays. For the year ended September 30, 2004, the Air Force reported $131.8 billion on
Line 15a., Disbursements, in the Combined Statement of Budgetary Resources for the Air
Force General Fund.

Disbursements made to pay liabilities or to purchase assets, goods, and services reduce
the amount on Line 1.A.1, Fund Balance with Treasury, on the Balance Sheet. The
amounts reported in the financial statements must be supported by a universe of valid
detailed transactions. A proper audit trail leading to original documentation for those
transactions affects management’s ability to produce reliable and auditable financial
statements.

Results. The General Accounting and Finance System - Rehost was able to identify the
disbursement transactions (10,528,467 records) and journal vouchers (4,342 vouchers)
that populated Line 15a. in the Air Force General Fund FY 2004 Statement of Budgetary
Resources. We selected 45 journal vouchers and 45 disbursement transactions to
determine whether adequate documentation existed to support the dollar values reported.
Defense Finance and Accounting Service Denver personnel provided complete
documentation for the 45 journal vouchers; however, they were not able to provide
complete supporting documentation for 15 of the 45 disbursement transactions. As a
result, we could not verify that a universe of transactions was available to support the
dollar value of disbursements reported on Line 15a. in the Air Force General Fund
FY 2004 Statement of Budgetary Resources. Until DFAS-DE improves the audit trails
for Air Force General Fund disbursements and strengthens its ability to identify, obtain,
and provide supporting audit documentation in a timely manner, Air Force management
will have limited assurance that the Disbursements line in the General Fund Statement of
Budgetary Resources and related financial statement line items, such as Fund Balance
with Treasury, will be ready for audit. (See the Finding section for the detailed
recommendations.)

Management Comments and Audit Response. The Central Site Director at DFAS-DE
partially concurred with the finding. The Central Site Director concurred in principle
with the need to improve processes for identifying and obtaining audit documentation
and providing it to auditors in a timely manner. He stated that processes and procedures
for providing requested documentation will continue to be emphasized to DFAS
managers. He also stated that DFAS is committed to working closely with the audit staff
to obtain needed information and documentation, and he indicated that improved
communication and coordination between auditors and management throughout the audit
would help to reduce time frames for providing requested documentation. The Central
Site Director’s comments are responsive. As a result of a concerted effort from August
through November 2006, DFAS-DE personnel were able to provide us with supporting
documentation for 44 of the 45 sample disbursement transactions. The DFAS-DE Audit
Liaison Office took a more active role in the process and involved personnel who were
knowledgeable of the wide range of systems, processes, interfaces, and organizations
involved in recording and reporting Air Force disbursement transactions. By periodically
emphasizing to managers the processes and procedures for providing requested
documentation and ensuring that records originating at closing sites are maintained and
available at enduring sites, DFAS-DE can be more responsive to auditor requests for
supporting documentation.

The Central Site Director nonconcurred with the need to record a complete disbursement
voucher number (or another common identifier) for all disbursement records in the
General Accounting and Finance System – Rehost. The Central Site Director stated that
referential integrity to source systems and documentation exists with or without a
complete voucher number recorded in the General Accounting and Finance System –
Rehost. DFAS-DE used other data elements to identify the disbursement transaction
when a voucher number was incomplete or not present. He also stated that system
changes to perpetuate a complete voucher number throughout all disbursement processes,
systems, and interfaces would be a significant endeavor. We understand that
management must constantly weigh the costs and benefits of the internal controls and
system processes it implements. However, reliance on non-unique data elements to
research transactions and obtain documentation for auditor verification is more
time-consuming than necessary even with the involvement of personnel who are
knowledgeable of the processes, systems, interfaces, and available documentation. Our
control sample test demonstrated that there was not a direct and efficient audit trail for
many types of disbursement transactions. The consolidation of DFAS operations will
make this process even more inefficient in the future. DFAS should review its most
significant processes, systems, and interfaces related to disbursements for obvious and
economical opportunities to increase the number and types of General Accounting and
Finance System – Rehost transactions that include a unique identifier that will allow
more effective identification of those transactions and more timely retrieval of supporting
documentation. We request that the Central Site Director at DFAS-DE reconsider his
position and provide additional comments on the final report by April 15, 2007.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                               i

Background                                                      1

Objectives                                                      2

Review of Internal Controls                                     2

Finding
     Reporting Air Force General Fund Disbursements             4

Appendixes

     A. Scope and Methodology                                  11
          Prior Coverage                                       12
     B. Financial Reporting of Disbursements                   14
     C. Disbursement Transaction and Journal Voucher Samples   18
     D. Report Distribution                                    22

Management Comments
     Defense Finance and Accounting Service Denver             25
Background
     The Chief Financial Officers Act of 1990, as amended by the Government
     Management Reform Act of 1994, requires DoD to prepare and submit annual
     audited financial statements to the Office of Management and Budget (OMB).
     The Government Management Reform Act also requires OMB to identify
     Components of executive agencies that should prepare audited financial
     statements. OMB Bulletin No. 01-02, “Audit Requirements for Federal Financial
     Statements,” requires eight DoD Components to prepare and submit stand-alone
     audited financial statements. One of these Components is the Air Force General
     Fund.

     The Defense Finance and Accounting Service Denver (DFAS-DE) provides
     finance and accounting support to the Air Force. DFAS-DE reports the status of
     Air Force budgetary resources, including the outlays (disbursements net of
     offsetting collections) made from those resources. The status is reported in the
     Statement of Budgetary Resources (SBR). Disbursements comprise most of the
     reported outlays. For the year ended September 30, 2004, the Air Force reported
     $131.8 billion on Line 15a. (Disbursements) of the Combined SBR for the Air
     Force General Fund. Disbursements made to pay liabilities or to purchase assets,
     goods, and services reduce Line 1.A.1, Fund Balance with Treasury, on the
     Balance Sheet for the Air Force General Fund.

     Numerous DoD systems process financial accounting information that is used to
     compile the Air Force General Fund financial statements. The primary system
     used by the Air Force is the General Accounting and Finance System – Base
     Level (GAFS-BL). GAFS-BL processes, summarizes, and reports financial data
     on a budgetary basis of accounting. GAFS-BL transfers its disbursements data to
     the General Accounting and Finance System – Rehost (GAFS-R) for
     classification in United States Standard General Ledger (USSGL) accounts.
     GAFS-R transfers its USSGL account trial balance to the Defense Departmental
     Reporting System (DDRS) for financial reporting in the SBR. Appendix B
     further discusses the financial reporting of disbursements in the Air Force General
     Fund financial statements.

Criteria
     DoD Financial Management Regulation. DoD Financial Management
     Regulation (FMR) 7000.14-R, volume 6B, “Form and Content of the Department
     of Defense Audited Financial Statements,” chapter 7, “Statement of Budgetary
     Resources,” states that outlays reported in the SBR consist of disbursements net
     of offsetting collections. Collections offset outlays at the account level and
     increase budgetary resources. Chapter 7 requires that outlays agree with the
     aggregate of disbursements and collections reported to Treasury on a monthly
     basis in compliance with OMB Circular No. A-11, “Preparation, Submission and
     Execution of the Budget,” June 2005. DoD FMR 7000.14-R, volume 5,
     “Disbursing Policy and Procedures,” chapter 11, “Disbursements,” August 1999,
     states that all disbursements must be supported by one of several types of formal




                                          1
           disbursement vouchers. To be considered a valid disbursement voucher, the
           voucher must contain a voucher heading and date, an accounting classification, an
           amount to be disbursed, a method of disbursement, and a payee.

           DoD FMR 7000.14-R, volume 6A, “Reporting Policies and Procedures,”
           chapter 2, “Financial Reports Roles and Responsibilities,” March 2002, requires
           DFAS to ensure that a complete and documented audit trail is maintained to
           support the reports it prepares. The financial reporting of disbursements includes
           documentation of the original transactions, approval and payment of
           disbursement, recording of transactions in the official accounting records, making
           accounting adjustments, and reporting the disbursements in the appropriate
           financial statement.

           Other Guidance. OMB Circular No. A-123, “Management’s Responsibility for
           Internal Control,” December 21, 2004, requires that transactions be promptly
           recorded, properly classified, and fully accounted for in order to prepare timely
           accounts and reliable financial and other reports. The documentation for
           transactions, management controls, and other significant events must be clear and
           readily available for examination. The Joint Financial Management Improvement
           Program Report No. SR-02-01, “Core Financial System Requirements,” mandates
           that Federal financial systems provide automated functionality to generate an
           audit trail of transactions from their initial source through all stages of related
           system processing. Their initial source may be source documents, transactions
           originating from other systems (e.g. feeder systems), or internal, system-generated
           transactions.

Objectives
           Our objective was to determine whether a universe of individual disbursement
           transactions existed for the Disbursements line item in the Air Force General
           Fund FY 2004 SBR. If there was a complete universe, we would determine
           whether an adequate audit trail existed to the documentation supporting the
           disbursement transactions. We reviewed the management control program as it
           related to our objective. See Appendix A for a discussion of the scope and
           methodology and for prior coverage related to our audit objectives.

Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, 1 require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of the controls.


1
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” was reissued on January 4,
    2006.



                                                     2
We identified an internal control weakness related to the ability of DFAS-DE to
provide documentation supporting the disbursements it processed in FY 2004.
We reviewed the self-evaluations prepared by six DFAS-DE organizations
responsible for monitoring and controlling the reconciliation and agreement of
detail field accounting records with departmental accounting records that are the
basis for financial reporting. Managers in the six DFAS-DE organizations did not
identify and report any material internal control weaknesses related to the
financial reporting of Air Force General Fund disbursements.




                                    3
          Reporting Air Force General Fund
          Disbursements
           Although GAFS-R was able to identify the transactions that
           comprised the disbursements reported on Line 15a. in the Air
           Force General Fund FY 2004 SBR, DFAS-DE was not able to
           provide complete supporting documentation for 15 of the 45
           disbursement transactions we sampled. Despite repeated requests
           from October 2005 through August 2006, DFAS-DE personnel
           provided us with complete supporting documentation for only 30
           disbursement transactions and partial documentation for an
           additional 6 disbursement transactions. DFAS-DE did not have an
           effective means of identifying, obtaining, and providing supporting
           documentation in a timely manner. As a result, we could not
           verify that a universe of transactions was available to support the
           dollar value of disbursements reported on Line 15a. in the Air
           Force General Fund FY 2004 SBR.


Financial Reporting of Disbursements
    Total disbursements ($131.8 billion) reported on Line 15a. in the
    Air Force General Fund FY 2004 SBR were supported by USSGL account
    balances in the DDRS trial balance. GAFS-R retained a universe of
    transactions that supported the USSGL account balances that DFAS-DE
    used to comprise the DDRS trial balance. DFAS-DE personnel reconciled
    cumulative Air Force General Fund net disbursements by appropriation
    with the cumulative amounts reported by the Treasury as of September 30,
    2004. As of that date, the cumulative Treasury totals were $591.7 million
    more than those in GAFS-R. DFAS-DE subsequently prepared and posted
    a journal voucher adjustment to make disbursements reported in GAFS-R
    and DDRS equal the Treasury totals. This unsupported difference was
    substantially reconciled after year-end when DFAS-DE identified
    reconciling items, increasing net disbursements by $588.2 million
    ($3.8 million less than required to balance to Treasury). DFAS-DE did
    not decrease the disbursements reported in the September 30, 2004,
    financial statements by the final unsupported difference of $3.8 million
    because the amount was immaterial to the reported total.




                                4
Review of Sample Items
The USSGL account balances in GAFS-R were supported by a universe of disbursement
transactions and journal vouchers. Table 1 shows a breakdown of the GAFS-R records
that comprised the account balances as of September 30, 2004.

            Table 1. Breakdown of GAFS-R Records as of September 30, 2004
                                                                       Dollar Value
                Type of Record                 Number                  $ in billions
          Disbursement                       10,528,467                   $131.9
          Journal Voucher                         4,342                       (.1)
           Total                                                          $131.8

Using the universe of transactions supporting the GAFS-R USSGL account balances, we
selected two samples to perform selected control tests to assess audit risk and determine
whether an audit trail from line 15a. back to the source documents existed. We randomly
selected 45 disbursement transactions and 45 journal vouchers. We requested that
DFAS-DE provide us documentation supporting the journal vouchers and the
disbursements. We initially requested the information in October 2005 and made
additional attempts through April 2006 to obtain hard and electronic copies of supporting
documentation from DFAS-DE personnel. 2

Disbursement Transactions Control Sample. From October 2005 through April 2006,
DFAS-DE personnel were unable to provide sufficient supporting documentation for 42
of the 45 sample disbursement transactions selected for testing. They provided partial
documentation for 19 sample disbursement transactions, but did not provide any
supporting documentation for 23 of the sample disbursement transactions. We made
numerous attempts to obtain the requested information from October 2005 through April
2006. Without the supporting documentation, we could not verify that an adequate audit
trail existed for the disbursements in GAFS-R. Although DFAS-DE personnel did not
provide any specific reason for their inability to provide all the documentation we
requested, problems with Disbursing Officer’s Voucher (DOV) numbers associated with
the sample disbursement transactions may have contributed to the problem. The lack of
an appropriate audit trail leading to original documentation for transactions adversely
affects management’s ability to produce reliable financial statements and increases audit
inefficiencies.

        Results of Partially Completed Control Test. For each of the 45 sample items,
we requested hard copy or electronic DOVs (SF 1034 and SF 1081) and sub-vouchers
(DD Form 1351-2 and Defense Logistics Agency Form 1675); transaction evidence, such
as vendor invoices, receiving reports, interfund transfers (SF 1080), and various types of
orders; and payment evidence, such as Treasury checks and electronic funds transfer
documentation. DFAS-DE provided complete supporting documentation for 3 of our
sample disbursement transactions and partial supporting documentation for 19 other
sample disbursement transactions. Table C-1 (Appendix C) provides pertinent

2
    Management Actions on page 7 describes documentation we obtained from August 15, 2006, through
    September 15, 2006.



                                                   5
information for each of the 45 sample disbursement transactions. Table 2
summarizes the level of documentary support DFAS-DE personnel provided for
the 45 disbursement transactions as of August 15, 2006.

          Table 2. Documentation Provided for Sample Items
                                         Documentation Provided
      Level of
   Documentary        Total      Disbursement     Transaction    Payment
      Support        Sample        Voucher         Evidence      Evidence
  Complete                  3               3               3           3
  Partial                 19               17              12           1
  None                    23                0               0           0
   Total                  45               20              15           4

DoD FMR, volume 6A, chapter 2, requires complete and accurate audit trails.
The DoD Components and DFAS are supposed to work together to maintain
adequate audit trails to support individual transactions reported to DFAS for
financial reporting purposes. Because DFAS-DE did not provide us with
sufficient documentation for the sample disbursement transactions, we could not
complete our planned control testing of the disbursement transactions. Without
the requested information, we could not verify that an adequate audit trail existed
for identifying and obtaining evidence supporting disbursement transactions
recorded in GAFS-R. DFAS-DE needs to improve its processes for identifying
obtaining audit documentation to auditors and providing it to auditors in a timely
manner.

        Identification of Disbursement Vouchers. The GAFS-R record for 28
of the 45 sample disbursement transactions did not include a DOV number in the
appropriate field. The DOV number is a unique identifier for each disbursement
voucher and is required by DoD FMR, volume 5, chapter 11. It is an important
element of an adequate audit trail for disbursements. The presence of a DOV
number, or another common identifier, in each GAFS-R record would improve
the audit trail. However, the presence of the DOV number in GAFS-R did not
correlate directly with whether supporting documentation was provided to us. As
of August 15, 2006, DFAS-DE personnel had provided us with partial or
complete documentation for 8 of the 28 sample disbursement transactions for
which a DOV number was not present in GAFS-R, but they had not provided us
with documentation for 4 of the 17 sample disbursement transactions for which a
DOV number was present in GAFS-R. In addition, three sample disbursement
transactions had the DOV number truncated from the 10 digits present in the
feeder system to 8 digits allowed in the GAFS-R record. This incompatibility
between GAFS-R and some feeder accounting and reporting systems further
obstructed the audit trail.

Journal Voucher Control Sample. Documentation was available to support the
45 journal vouchers. We obtained a copy of each journal voucher and reviewed
the documentation file that DFAS-DE maintained for it. Each journal voucher
contained multiple line item records that affected numerous financial statement
line items. We confirmed that each journal voucher agreed with the GAFS-R
record in amount and by USSGL account. We also confirmed that an appropriate


                                     6
    DFAS-DE accounting official approved each journal voucher. We reviewed the
    documentation file for each journal voucher to determine whether the journal voucher
    was supported by appropriate documentation available for audit. We did not review the
    documentation for propriety. We concluded that each of the line item records that related
    to Line 15a. was a valid item in the disbursements universe. Table C-2 provides
    pertinent information for each of the 45 journal vouchers.


Management Actions
    On August 15, 2006, we met with DFAS-DE management representatives. Management
    personnel stated that the inability to provide sufficient supporting documentation for the
    sample disbursement transactions was not representative of DFAS-DE management’s
    commitment to meeting auditors’ requirements, and the audit results did not fairly reflect
    the audit trail for tracing transactions to source documentation. From August 15, 2006,
    through September 15, 2006, DFAS-DE personnel made a concerted effort to provide the
    missing documentation for the 42 sample disbursement transactions. DFAS-DE
    personnel provided us additional information to complete 27 of the 42 sample
    disbursement transactions. Table 3 shows the updated status of the documentary support
    DFAS-DE personnel provided for the 45 sample items.

                 Table 3. Updated Status of Documentation Provided for Sample
                                  Disbursement Transactions
                                  (as of September 15, 2006)
                                                            Documentation Provided
                 Level of
              Documentary             Total    Disbursement           Transaction     Payment
                 Support             Sample      Voucher               Evidence       Evidence
             Complete                       30          301                    30          302
             Partial                         6            4                     3            2
             None                            9            0                     0            0
              Total                         45          341                    33          322
             1
              Includes 12 sample items that did not require a disbursement voucher.
             2
              Includes 4 sample items that did not require payment evidence.


    As of September 15, 2006, DFAS-DE personnel had not provided us with complete
    supporting documentation for 15 of the 45 sample disbursement transactions.


Conclusion
    GAFS-R identified the transactions that populated the disbursements reported on
    Line 15a. in the Air Force General Fund FY 2004 SBR. From that universe, we were
    able to select disbursement transactions and journal vouchers for control testing.
    However,


                                                      7
     although DFAS-DE personnel were able to provide complete supporting
     documentation for all 45 sample journal vouchers, they were able to provide
     complete supporting documentation for only 30 of 45 sample disbursement
     transactions.

     The lack of documentary evidence prevented us from satisfying ourselves that the
     financial statement line item was supported by reasonable documentation and
     verifying that a valid universe of disbursements exists. For DoD managers to
     determine that a financial statement line item is ready for audit and for auditors to
     ultimately express an opinion on the financial statements, they must be satisfied
     that the financial statements are supported by reasonable documentation. The
     Air Force and DFAS have only limited assurance that an adequate audit trail
     exists for the disbursements reported in the financial statements. Until corrected,
     the problems discussed in this report will prevent DFAS-DE from promptly
     providing auditors with documentation required to support disbursements on the
     Air Force General Fund SBR and Balance Sheet. When disbursement audit trails
     are not adequate, the accuracy and validity of disbursements cannot be verified
     efficiently, if at all. The lack of appropriate DFAS support in response to auditor
     requests also increases the cost of audits because of increased audit inefficiencies.
     DFAS-DE needs to improve processes for identifying and obtaining audit
     documentation and providing it to auditors in a timely manner. These
     improvements should include procedures for identifying the source of transactions
     posted to GAFS-R, the subject matter experts for each related system process, and
     the points of contacts for obtaining documentation from feeder accounting and
     reporting systems or the originator of the transactions. Ensuring that the DOV
     number for all disbursement records is transferred from feeder accounting and
     reporting systems to GAFS-R also would improve the audit trail.


Management Comments on the Finding and Audit Response
     Management Comments. The Central Site Director at DFAS-DE partially
     concurred with the finding. The Central Site Director stated that DFAS continues
     to pursue opportunities to enhance audit trails but believes that an audit trail
     providing referential integrity from recorded transactions to source systems and
     supporting documentation exists for disbursements recorded in GAFS-R. He
     stated that knowledgeable personnel were eventually able to locate complete
     documentation for 41 sample disbursement transactions and partial
     documentation for 3 of the remaining 4 disbursement transactions.
     Documentation for the other transaction was transferred from a closed site, and it
     has not been located. The Central Site Director also stated the sample items were
     varied in nature and involved a wide range of systems, processes, interfaces, and
     organizations. When voucher numbers were not in GAFS-R, knowledgeable
     personnel used other data elements in GAFS-R to identify and track the
     transactions. The Central Site Director agreed that efforts to provide requested
     documentation were not always timely or responsive and stated that time frames
     for obtaining and providing documentation will be improved in the future. He
     also acknowledged that the audit provided an important first step for conducting a
     comprehensive audit of the Disbursements line in the SBR.



                                          8
    Audit Response. Referential integrity from transactions recorded in GAFS-R to source
    systems and supporting documentation should not depend on the availability of personnel
    knowledgeable of the wide range of systems, processes, interfaces, and organizations
    involved in recording and reporting Air Force disbursement transactions. We
    acknowledge that DFAS-DE provided us with additional supporting documentation for
    the requested sample transactions subsequent to completion of our audit. However, we
    did not review this documentation and cannot comment on management’s assertion
    regarding the completeness of the documentation provided. The ability to promptly
    provide auditors with complete documentation is essential and will continue to grow in
    importance. Although our audit results cannot be projected on the population of
    10,528,467 transactions, valued at $131.8 billion, we believe they clearly indicate that
    DFAS-DE would have trouble providing auditors with documentation supporting
    transactions used in the compilation of the Air Force financial statements. If DFAS-DE
    does not improve the audit trail, financial statement audits may be impractical or
    unnecessarily expensive.


Recommendations, Management Comments, and Audit
   Response
    We recommend that the Director, Defense Finance and Accounting Service Denver:

           1. Improve processes for identifying and obtaining audit documentation and
    providing it to auditors in a timely manner.

    Management Comments. The Central Site Director at DFAS-DE concurred in principle
    with the recommendation and stated that processes and procedures for providing
    requested documentation will continue to be emphasized to DFAS managers, including
    procedures for ensuring that records at closing sites will be maintained and available at
    enduring sites. He stated that DFAS is committed to working closely with audit staff to
    obtain needed information and documentation. He also stated that improved
    communication and coordination between auditors and management throughout audit
    fieldwork should help reduce time frames for providing requested documentation.

    Audit Response. Management comments are responsive. As a result of a concerted
    effort at the end of the audit and during the time DFAS-DE prepared comments on the
    draft of this report, DFAS-DE personnel were able to provide us with complete or partial
    supporting documentation for 44 of the 45 sample disbursement transactions. The
    DFAS-DE Audit Liaison Office took a more active role in the process and involved
    personnel who were knowledgeable of the wide range of systems, processes, interfaces,
    and organizations used to record and report Air Force disbursement transactions. More
    frequent communication with and direct auditor access to DFAS managers and their
    functional staff and work product is a significant aspect of improving the responsiveness
    to auditor requests for documentation. By periodically emphasizing to managers the
    processes and procedures for providing requested documentation and ensuring that
    records originating at closing sites are maintained and available at enduring sites,
    DFAS-DE can be more responsive to auditor requests for supporting documentation.




                                                9
      2. Record a complete disbursement voucher number (or another
common identifier) for all disbursement records in the General Accounting
and Finance System – Rehost.

Management Comments. The Central Site Director at DFAS-DE nonconcurred
and stated that referential integrity to source systems and documentation exists
with or without a complete voucher number recorded in GAFS-R. He
acknowledged that GAFS-R records do not always contain a complete voucher
number for disbursements made by another organization and reported through
various interface processes. When a voucher number is not available or not
provided to GAFS-R by the source system, other data elements are used to
determine the source and category of the disbursement transaction. The Central
Site Director stated that personnel who were knowledgeable of the processes,
systems, interfaces, and available documentation were able to track GAFS-R
transactions to the source systems and supporting documentation for 44 of the 45
sample items. System changes to perpetuate a complete voucher number
throughout all disbursement processes, systems, and interfaces would be a
significant endeavor, especially for those systems not owned by DFAS or the Air
Force. The Central Site Director also stated that DFAS believes the audit’s
limited scope neither substantiates nor warrants such an effort.

Audit Response. Management comments are partially responsive. Our control
sample test was adequate to demonstrate that there is not a direct and efficient
audit trail for many types of transactions in the disbursements universe. Reliance
on non-unique data elements to research transactions and obtain documentation
for auditor verification is more time-consuming than necessary even with
personnel who are knowledgeable of the processes, systems, interfaces, and
available documentation. We understand that management must constantly weigh
the costs and benefits of internal controls and system processes it implements.
However, the results of this audit indicate that financial statement audits may not
be cost-effective even if DFAS is ultimately able to obtain supporting
documentation for transactions selected for testing. We also recognize the
significance of the system changes needed to perpetuate a complete voucher
number throughout all disbursement processes, systems, and interfaces. DFAS
should review its most significant processes, systems, and interfaces related to
disbursements for obvious and economical opportunities to increase the number
of GAFS-R records that include a unique identifier that will allow more effective
identification of the transactions and more timely retrieval of supporting
documentation. The data elements that can be used to determine the source and
category of disbursement transactions and provide a cross reference to the
transactions and supporting documentation should be clearly specified. We
request that the Central Site Director reconsider his position and provide
additional comments on the final report.




                                    10
Appendix A. Scope and Methodology
   We reviewed internal controls and accounting procedures related to reporting
   disbursements in the Air Force General Fund FY 2004 SBR. We interviewed
   personnel from the Office of the Assistant Secretary of the Air Force (Financial
   Management and Comptroller) and DFAS; and obtained and reviewed applicable
   Treasury Financial Manuals, DoD FMRs, and other DoD guidance documents
   such as DFAS-DE standard operating procedures and cycle memos. We also
   performed walk-throughs of pertinent processes; and obtained and examined
   supporting documents for accounting reports, journal vouchers, and individual
   disbursement transactions.

   We reviewed the dollar value of the USSGL accounts that comprised Line 15a.,
   Disbursements, as reported in the DDRS and GAFS-R trial balances as of
   September 30, 2004, and compared their cumulative totals to the amount reported
   on Line 15a. in the Air Force General Fund FY 2004 Combined SBR. We
   reviewed the controls and procedures for reconciling the amount of cash
   disbursements reported in GAFS-R to the amounts reported by the U.S. Treasury.
   We also reviewed the controls and procedures for reconciling the dollar value of
   disbursements reported in GAFS-R to the amounts reported by the underlying
   transaction processing systems. To assess the audit risk associated with financial
   reporting controls related to the accumulation of detail transactions into USSGL
   account totals and the processing of individual disbursement transactions, we
   obtained a universe of 10,528,467 disbursement records and 67,564 journal
   voucher line items (4,342 journal vouchers) from GAFS-R in support of Line 15a.
   in the FY 2004 Combined SBR for the Air Force General Fund. We randomly
   selected a sample of 45 individual disbursement transactions and a sample of 45
   journal vouchers for control testing.

   From October 2005 through August 2006, we attempted to obtain supporting
   documentation for the sample of 45 disbursement transactions and 45 journal
   vouchers. For each individual disbursement transaction and journal voucher in
   our sample for which DFAS-DE provided documentation, we examined all
   related documents and detail accounting records supporting the item.

   We reviewed the documentation file for each journal voucher for the limited
   purpose of determining whether the journal voucher was supported by appropriate
   documentation available for audit. We did not examine the supporting
   documentation to determine its propriety. We also reviewed the DFAS-DE
   management control program related to financial reporting controls over
   disbursements.

   We performed this audit from February 2005 through September 2006 in
   accordance with generally accepted government auditing standards.

   Use of Computer-Processed Data. The disbursements amount reported on
   Line 15a. in the Air Force General Fund FY 2004 Combined SBR flows from
   detail processing systems to the general ledger accumulation system to the
   financial statement reporting system. We did not test the general and application
   controls for these systems to determine the validity of the related


                                       11
      computer-processed data. We independently validated that the accumulation of
      the universe of the detail transactions agreed with the reported SBR total. We
      relied on the agreement of the output data from system to system to support data
      validity. In addition, we validated our sample items by examining the related
      supporting documents for agreement with detail accounting output from the
      transaction processing system. Nothing came to our attention as a result of
      specified procedures that caused us to doubt the reliability of the
      computer-processed data.

      Use of Technical Assistance. Personnel from the Quantitative Methods
      Directorate, Office of the Deputy Inspector General for Policy and Oversight
      assisted in the development of the random samples of individual disbursement
      transactions and journal vouchers selected from the universe for detail testing.

      Government Accountability Office High-Risk Area. The Government
      Accountability Office (GAO) has identified several DoD high-risk areas. This
      report provides coverage of the Financial Management, Approach to Business
      Transformation, and Business System Modernization high-risk areas.


Prior Coverage
      During the last 5 years, GAO, the Department of Defense Inspector General (DoD
      IG), and Air Force Audit Agency (AFAA) have issued five reports related to
      disbursements and the Statement of Budgetary Resources. Unrestricted GAO
      reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
      DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
      Unrestricted AFAA reports can be accessed at
      https://www.afaa.hq.af.mil/afck/plansreports/reports.shtml.

GAO
      GAO Report No. GAO-05-521, “DoD Problem Disbursements, Long-standing
      Accounting Weaknesses Result in Inaccurate Records and Substantial Writeoffs,”
      June 2, 2005

DoD IG
      DoD IG Report No. D2006-0039, “Internal Controls Over the Compilation of the
      Air Force, General Fund, Fund Balance with Treasury for FY 2004,”
      December 23, 2005




                                           12
AFAA
   AFAA Report No. F2005-0002-FB2000, “General Accounting Finance System –
   Rehost Controls,” March 23, 2005

   AFAA Report No. F2005-0001-FB2000, “Statement of Budgetary Resources
   (General Fund) Financial Data Systems,” February 2, 2005

   AFAA Report No. F2004-0007-FB3000, “General Accounting Finance System
   (GAFS/BQ) Access Controls,” December 16, 2003




                                  13
Appendix B. Financial Reporting of
            Disbursements
   The Air Force reported total disbursements of $131.8 billion in its Air Force
   General Fund FY 2004 Combined SBR. Various disbursing offices make
   disbursements against the U.S. Treasury for the Air Force. These disbursement
   transactions take place throughout the world. Numerous financial systems
   process transactions that culminate in a disbursement for financial accounting
   purposes. Disbursements include cash payments for goods furnished or services
   rendered, “no check drawn” transfers of funds from one appropriation or fund to
   another, and transfers made via Treasury’s Intra-governmental Payment and
   Collection System. A disbursement may also be a combination of a payment and
   a collection by voucher deduction. For example, a civilian payroll voucher may
   include deductions for Federal tax, U.S. savings bonds, and civil service
   retirement as well as the net pay disbursed to the payee.

   As agents of the Treasury, DoD disbursing officers make disbursements on
   Treasury’s behalf. The Military Services and other Defense agencies have
   disbursing offices that make a variety of disbursements throughout the monthly
   cycle, including cash payments by Treasury check and electronic funds transfer
   and non-cash disbursements. These transactions include for-self disbursements
   (intra-service disbursements) and by-others disbursements (inter-service and
   interagency disbursements). The DoD disbursing officers’ agency relationship
   requires them to report their Air Force disbursements by appropriation to
   Treasury through DFAS-DE. During FY 2004, the Air Force had 195 direct
   appropriations with disbursement activity. The DoD disbursing officers satisfy
   their cash accountability requirements by reporting their disbursements to the
   Treasury daily using DD Form 2657, “Daily Statement of Accountability.” On a
   monthly basis, summary information is sent to the Treasury using Standard Form
   (SF) 1219, “Statement of Accountability” and SF 1329, “Statement of
   Transactions According to Appropriations, Funds and Receipt Accounts in
   Support of Statement of Accountability.” In addition, disbursing officers report
   all checks issued monthly using SF 1179, “Month End Check Issue Summary.”
   Other Government agencies also make Air Force disbursements directly through
   Treasury (such as the U.S. State Department and the Department of
   Transportation). The Treasury maintains a trial balance of unexpended Air Force
   general funds by appropriation and reports these balances monthly on SF 6653,
   “Undisbursed Appropriation Account Ledger.”

   Disbursing officers within the DFAS-DE network make intra-service
   disbursements. Inter-service disbursements are made by disbursing officers
   reporting to a DFAS site outside the DFAS-DE network. Other Government
   agencies also make disbursements for the Air Force and provide the accounting
   detail to the servicing DFAS Central Site (DFAS Cleveland, Columbus, and
   Indianapolis). Each DFAS site compiles the information from its disbursing
   officers and reports its disbursement transactions to the DFAS Central Sites as
   appropriate. DFAS Central Sites may report both intra-service and inter-service




                                      14
disbursements for the Air Force. For example, DFAS Cleveland reports
for-self disbursements for Air Force payroll and by-others disbursements
for Navy payments citing Air Force general funds.

DFAS-DE accumulates Air Force General Fund disbursements for
departmental budgetary and proprietary accounting. However, there is not
a single integrated financial system that processes disbursements and
accumulates the related accounting information for financial reporting.
The disbursing systems generally interface to the financial reporting
systems by transferring data files for automated posting. The field-level
financial reporting system for the Air Force is GAFS-BL. It tracks
appropriation funds on a budgetary basis. Accounting transactions entered
into the GAFS-BL system are not assigned USSGL account codes at the
time of entry. DFAS-DE uses GAFS-R to perform the required general
ledger accounting. Using the transactions from GAFS-BL, GAFS-R
classifies and posts the transactions into USSGL accounts by employing
an extensive set of rules based on a number of coded attributes in each
GAFS-BL transaction record. In FY 2004, GAFS-R translated more than
10 million disbursement transactions and DFAS-DE posted more than
4,000 correcting journal vouchers with more than 60,000 line items
adjusting disbursement general ledger accounts for rules translation errors.

A detail voucher showing appropriate date, voucher number, bill number,
paying activity, approvals, and various other accounting data supports
each disbursement. Documentation such as vendors’ invoices, evidence of
receipt and acceptance of goods and services, and approved travel orders,
support each paid voucher. Standard voucher forms include:

    • SF 1034, Public Voucher for Purchases and Services Other Than
       Personal;
    • SF 1080, Voucher for Transfers Between Appropriations And/Or
       Funds;
    • SF 1081, Voucher and Schedule of Withdrawals and Credits;
    • DD Form 1351-2, Travel Voucher or Sub-Voucher;
    • DD Form 1400, Statement of Interfund Transactions; and
    • Defense Logistics Agency (DLA) 1675, Sub-Voucher.
The Air Force processes for-self disbursements through the DFAS-DE
Centralized Disbursements System (CDS), DFAS Columbus CDS,
Treasury’s Intra-governmental Payment and Collection System, and the
DFAS Cleveland payroll system. The various disbursing systems provide
Air Force general funds for-self disbursement transactions to DFAS-DE
using data base transfer (DBT) files. GAFS-BL receives and
automatically posts these DBT files daily. Daily, DFAS-DE reconciles
the for-self disbursements posted to GAFS-BL to the DD Form 2657
prepared by each disbursing officer. As of each month end, DFAS-DE
reconciles the summary of current month postings of for-self
disbursements to GAFS-BL (as shown on Report HAF-ACF(M)7113) to
the total disbursements reported on SF 1219 and to the disbursements by


                             15
appropriation reported on SF 1329 prepared by disbursing officers and
reported to Treasury. This reconciliation ensures agreement of total for-
self disbursement activity posted to GAFS-BL with that reported to
Treasury.

By-others disbursements citing Air Force general funds come from the
other DFAS Central Sites and directly from other Federal agencies. The
disbursing officers making these disbursements have reported their totals
to Treasury. Air Force field organizations must accept the individual
disbursements before they are included in departmental accounting
records. By-others disbursements not yet accepted are not posted to
departmental records as of month end and must be entered by journal
voucher adjustment.

GAFS-BL transmits a file containing accounting transaction data to
GAFS-R daily. GAFS-R processes the detailed disbursements
transactions assigning them to USSGL accounts based on the Balance
Identifier (BID) and various data elements in the GAFS-BL record.
DFAS-DE departmental accounting personnel balance these daily data
transfers. GAFS-BL produces a cumulative Report HAF-ACF(M)7113,
which is reconciled to the cumulative GAFS-R trial balance for final
assurance that all GAFS-BL transactions are posted to GAFS-R at the end
of the month. With respect to disbursements, DFAS-DE departmental
accountants compare cumulative disbursements (by appropriation) from
Treasury to cumulative disbursements in GAFS-R prior to final month-end
closing and completion of the financial reporting process. The difference
between these cumulative totals is referred to as Undistributed Net
Disbursements. DFAS-DE departmental accountants record journal
voucher entries to adjust GAFS-R general ledger account balances to the
Treasury balances and complete their monthly financial reporting. On
September 30, 2004, Undistributed Net Disbursements totaled
$591.7 million (the Treasury cumulative net disbursements were more
than the Air Force cumulative departmental net disbursements). After the
month end closing, the DFAS-DE Accountability and Reporting Division
analyzes the differences and completes the reconciliation to the Treasury
SF 6653 trial balance. The by-others disbursements not yet accepted by
field organizations that are not posted to departmental totals are the most
substantial part of the reconciling items. Other reconciling items are
generally also current month disbursements or reimbursements reported to
Treasury that have not been posted to departmental totals in GAFS-R.
The Undistributed Net Disbursements amount is never fully supported
with known reconciling items. As of September 30, 2004, the
unsupported amount was $3.8 million. This amount would have
decreased reported disbursements in the Air Force General Fund SBR.




                            16
The USSGL crosswalk to the SBR in Treasury Financial Manual Supplement
Release S2 05-01, December 2004, specifies that the following USSGL accounts
comprise Line 15a. of the SBR for FY 2004.

   •   4802   Undelivered Orders – Obligations, Prepaid/Advanced

   •   4882   Upward Adjustments of Prior-Year Undelivered Orders –
              Obligations, Prepaid/Advanced

   •   4902   Delivered Orders – Obligations, Paid

   •   4908   Authority Outlayed Not Yet Disbursed

   •   4982   Upward Adjustments of Prior-Year Delivered Orders –
              Obligations, Paid

The total of these account balances from the GAFS-R trial balance on
September 30, 2004, was in agreement with the disbursements amount reported in
the published Air Force General Fund FY 2004 Combined SBR.




                                  17
Appendix C. Disbursement Transaction and
            Journal Voucher Samples
   Table C-1 lists the 45 disbursement transactions selected for review, including the
   2 sample transactions that we initially selected but replaced. The DOV Number
   field should contain the unique identifying reference for each disbursement
   voucher processed. This reference enables timely research of the disbursement,
   including locating the original documentation supporting its validity. Table C-1
   also identifies the information that DFAS-DE did not provide us.

   Table C-2 lists the 45 journal vouchers selected for review. The JV Reference
   field offers the unique identifying reference number for each journal voucher
   processed. As discussed in Appendix B, GAFS-R uses an extensive set of rules to
   classify transaction data it receives for posting to USSGL accounts.




                                       18
                                Table C-1. Disbursement Transaction Sample
                                                                Disbursement       Transaction       Payment
  Sample          Disbursement Record in GAFS-R                   Voucher           Evidence         Evidence
  Number         Date     $ Amount      DOV Number                Provided          Provided         Provided
      1       3/23/2004          (527.40)     DQ086797                  Yes             Yes              Yes1
      2       5/11/2004           (47.70)     Not present               N/A1            Yes1             Yes1
      3       7/17/2005         3,440.40       D77911                   Yes         Not provided Not provided
      4       7/19/2004       (86,774.13)     Not present               Yes             Yes1             Yes1
      5       4/26/2004        (1,001.16)     Not present           Not provided        Yes          Not provided
                                                                            2               1
      6       1/21/2004           (19.20)     Not present               N/A             Yes              N/A2
      7       8/18/2004           468.69      Not present               Yes             Yes          Not provided
      8       9/10/2004           (86.33)     Not present               N/A1            Yes1             Yes1
      9       4/30/2004            (7.16)     Not present           Not provided    Not provided Not provided
     10       7/21/2004          (668.00)     TMA05987                  Yes             Yes              Yes1
     11      11/21/2003            (0.02)     Not present               Yes             Yes              Yes
     12       2/27/2004            (0.01)     Not present           Not provided    Not provided Not provided
     13        1/9/2004          (307.00)     Not present               Yes             Yes              Yes1
     14       10/9/2003           (38.48)     CRM00079                  Yes             Yes              Yes
                                                                            3               1
     15       3/2/2004         86,869.81      Not present               N/A             Yes              N/A3
                                                                            1               1
     16        7/8/2004       (21,546.07)     Not present               N/A             Yes              Yes1
     17       10/7/2003          (273.00)     TM800276                  Yes             Yes              Yes1
     18        5/6/2004          (412.50)     TOP03070                  Yes             Yes1             Yes1
                                                                            1
     19       12/9/2003          (672.00)     DM041430                  Yes             Yes              Yes1
     20       6/18/2004        (1,466.79)     Not present           Not provided    Not provided Not provided
     21        7/4/2004          (967.39)                    Item removed from sample and replaced.
     22       6/23/2004        (2,057.25)       Not present         Not provided    Not provided Not provided
     23       3/16/2004          (814.96)       TX202256                Yes             Yes1             Yes1
     24       4/16/2004       (90,727.63)        DP017531               Yes             Yes          Not provided
                                                                                            1
     25      9/24/2004           (668.05)       TH305797                Yes             Yes              Yes1
     26        9/7/2004       (15,643.81)       Not present             N/A1            Yes1             Yes1
     27       4/26/2004        (2,306.30)       Not present             Yes         Not provided         Yes
                                                                            1               1
     28       12/3/2003           (15.30)       Not present             N/A             Yes              Yes1
     29      12/19/2003          (106.97)        4Q0J9030           Not provided    Not provided Not provided
     30      11/18/2003        (1,317.90)       Not present         Not provided    Not provided         Yes1
                                             Table continued on next page
1
  DFAS-DE personnel provided us this documentation from August 15, 2006, through September 15, 2006.
2
  These sample items are vouchers that were voided.
3
  Sample item #15 is an entry related to the transfer of disbursement records from one DFAS processing
  center to another. Therefore, there is no standard voucher or payment evidence applicable for this
  transaction.




                                                    19
                             Table C-1. Disbursement Transaction Sample (cont'd)

                                                              Disbursement        Transaction      Payment
 Sample         Disbursement Record in GAFS-R                   Voucher            Evidence        Evidence
 Number        Date     $ Amount      DOV Number                Provided           Provided        Provided
      31        6/10/2004          (2,252.05) T9G28051                Yes                 Yes         Yes1
      32       12/11/2003          (4,122.69) Not present             N/A1               Yes1         Yes1
      33         9/8/2004             (38.25) Not present             Yes                 Yes         Yes1
      34       12/24/2003           1,519.61  DM052052                Yes                 Yes         N/A4
      35        12/9/2003            (731.50) TM203526                Yes                 Yes         Yes1
                                                                          1                  1
      36        11/6/2003             (20.70) Not present             N/A                Yes          Yes1
      37         1/8/2004             (22.44) Not present             N/A1               Yes1         Yes1
      38        11/4/2003           9,126.40  CRO00716                Yes                 Yes         Yes
                                                                          2                  1
      39        7/28/2004              46.00  TKN03159               N/A                 Yes          N/A2
      40         7/3/2004          (2,138.58)              Item removed from sample and replaced.
      41        7/7/2004         (10,160.10)  Not present             Yes                Yes1         Yes1
      42        8/27/2004            (442.71) Not present         Not provided       Not provided Not provided
      43        7/1/2004              (70.43) DW015214                Yes1               Yes1         Yes1
      44        7/14/2004              (5.90) Not present         Not provided       Not provided Not provided
                                                                          1
      45       8/19/2004              (22.50) Not present             N/A                Yes1         Yes1
   Repl #1     11/6/2003              (12.61) Not present         Not provided       Not provided Not provided
   Repl #2     4/12/2004           (1,351.72) Not present         Not provided       Not provided Not provided
1
  DFAS-DE personnel provided us this documentation from August 15, 2006, through September 15, 2006.
2
  These sample items are vouchers that were voided.
4
  Sample item #34 is a voucher that was subsequently voided. Therefore, payment evidence is not
  applicable for this transaction.




                                                20
           Table C-2. Journal Voucher Sample Selection
Sample       JV              Date                JV           Support
Number    Reference       Approved            Amount          Available
   1     J2004014820      5/26/2004      $      (22,793.00)     Yes
   2     J2004014875      5/26/2004      $       11,415.41      Yes
   3     J2004014511      5/25/2004      $       (1,134.30)     Yes
   4     J2004014519      5/25/2004      $       20,848.25      Yes
   5     J2004014788      5/26/2004      $        3,128.89      Yes
   6     J2004014745      5/26/2004      $      (34,746.60)     Yes
   7     J2004014399      5/25/2004      $       (3,624.80)     Yes
   8     J2004023910      10/5/2004      $       (3,337.35)     Yes
   9     J2004023882      10/5/2004      $        8,230.00      Yes
  10     J2004023784      10/5/2004      $         (183.36)     Yes
  11     J2004014751      5/26/2004      $       (1,440.00)     Yes
  12     J2004014842      5/26/2004      $       (8,132.60)     Yes
  13     J2004014796      5/26/2004      $        5,149.50      Yes
  14     J2004023787      10/5/2004      $        8,436.92      Yes
  15     J2004014517      5/25/2004      $       (1,467.15)     Yes
  16     J2004014803      5/26/2004      $       (2,129.60)     Yes
  17     J2004014517      5/25/2004      $       (5,746.95)     Yes
  18     J2004014825      5/26/2004      $       (1,321.00)     Yes
  19     J2004014861      5/26/2004      $      (12,749.00)     Yes
  20     J2004014855      5/26/2004      $        1,127.00      Yes
  21     J2004014750      5/26/2004      $        1,085.00      Yes
  22     J2004012027       4/9/2004      $      (16,358.20)     Yes
  23     J2004014629      5/26/2004      $       (1,745.37)     Yes
  24     J2004023719      10/4/2004      $        5,520.85      Yes
  25     J2004014796      5/26/2004      $       39,218.02      Yes
  26     J2004014400      5/25/2004      $       11,494.90      Yes
  27     J2004014585      5/25/2004      $        5,205.16      Yes
  28     J2004014518      5/25/2004      $        4,810.86      Yes
  29     J2004014400      5/25/2004      $        1,749.00      Yes
  30     J2004008420      2/14/2004      $      (35,100.00)     Yes
  31     J2004014580      5/25/2004      $        3,777.40      Yes
  32     J2004014517      5/25/2004      $       67,173.21      Yes
  33     J2004016150       6/5/2004      $      (77,488.49)     Yes
  34     J2004009963      3/10/2004      $    3,969,870.73      Yes
  35     J2004023883      10/5/2004      $       (6,650.00)     Yes
  36     J2004014761      5/26/2004      $        2,969.82      Yes
  37     J2004023755      10/5/2004      $       (9,029.62)     Yes
  38     J2004002264      12/10/2003     $   (2,130,079.55)     Yes
  39     J2004014813      5/26/2004      $       (4,702.44)     Yes
  40     J2004014639      5/26/2004      $       (1,119.00)     Yes
  41     J2004014570      5/25/2004      $        3,350.29      Yes
  42     J2004023952      10/5/2004      $      (11,714.64)     Yes
  43     J2004016244       6/5/2004      $         (906.00)     Yes
  44     J2004014534      5/25/2004      $      (62,391.96)     Yes
  45     J2004014411      5/25/2004      $       27,124.87      Yes




                        21
Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Other Defense Organizations
Director, Defense Finance and Accounting Service
       Director, Defense Finance and Accounting Service Denver

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      23 

Defense Finance and Accounting Service Denver
Comments


                           DEFENSE FINANCE AND ACCOUNTING SERVICE
                                           6760 E. IRVINGTON PLACE
                                         DENVER COLORADO 8O279-8000




       DFAS-AD/DE                                                                     '


       MEMORANDUM FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL AUDITING
                        SERVICE, OFFICE OF INSPECTOR GENERAL,
                        DEPARTMENT OF DEFENSE

       SUBJECT:      Initial Management Comments to the Department of Defense Inspector General's
                     Draft Report, "Air Force General Fund Disbursements as Reported in the
                     Statement of Budgetary Resources" - Project No. D2005-D000FD-0103,000


              Initial management comments to the subject audit report are attached. The comments
       address the Finding and two Recommendations for disbursement audit trails and supporting
       documentation.

             Questions may be directed to Mr. Paul Mahoney, Audit Support, DFAS-JBN/DE, (303)
       676-7253 or DSN 926-7253, E-mail: paul.mahoney@dfas.mil.




                                                    Richard J. Anderfuren
                                           Central Site Director
                                            DFAS Denver

       Attachment:
       As Stated




                                                    www.dfas.mil
                                            Your Financial Partner @ Work




                                                25
                               Initial Management Comments
  AIR Force General Fund Disbursements as Reported in the Statement of Budgetary Resources
                              Project D2005-P000FD-0103.000


Response to finding:

Management Comments: Paitially concur Although DFAS continues to pursue opportunities to
enhance audit trails, we believe an audit trail exists today for disbursement transactions recorded in
GAFS-R that provides referential integrity back to source systems and documentation. As of this date,
supporting documentation and explanations have been provided to the DODIG audit staff for 44 of the
45 sample items (41 complete; 3 partial; for the remaining itemt records were transferred from a
closed site and documentation has not been located to date) Knowledgeable personnel tracked these
GAFS-R transactions back to source systems and documentation Supporting documentation for these
transactions varied significantly as the sample included adjustments, collections, refunds, system-
generated entries, etc, that involved a wide range of different systems, processes, interfaces, and
organizations The documentation was obtained both with and without complete voucher numbers
recorded in GAFS-R. Where complete voucher numbers were not transmitted and reflected in GAFS-
R (for example, from systems not owned by the Air Force or DFAS}, other data elements in the
GAFS-R record were used to identify and track the transactions. The DODIG acknowledged in the
audit Report that the presence of a complete voucher number did not correlate directly with whether
supporting documentation was obtained and provided

       The Report noted that DFAS efforts to provide requested documentation were not always
timely and responsive We agree and assure timeframes for obtaining and providing documentation
will be improved in the future.

        Finally, the draft Report provides DFAS and Air Force management with only limited
information for assessing the overall auditability of the Disbursements line 15a on the Air Force's
Statement of Budgetary Resources (SBR) The audit effort encompassed a random sample of 45
disbursement transactions valued at $145,288. DFAS recognizes that the DODIG conclusions in the
draft Report are limited to the 45 sample items and do not provide a sufficient basis for projections to
the universe of 10,528,467 transactions valued at $131.8 Billion However, we believe the audit effort
to date provides an important first step for conducting a more comprehensive audit of the
Disbursement line on the Ait Force's SDR Such an audit would provide management with valuable
insight in efforts to achieve audited Financial Statements



Response to Recommendations:

Recommendation 1: Improve processes for identifying and obtaining audit documentation and
providing it to auditors in a timely manner

Management Comments; Concur in Principle Processes and procedures for providing requested
documentation will continue to be emphasized to DFAS managers through various forums, meetings,
conferences, instructions, etc This includes procedures for ensuring records at closing sites will be
maintained and available atenduringingsites Improved communication and coordination between
                                                    !




                                                 26
auditors and management throughout audit field work will also help reduce timeframes for providing
requested documentation DFAS is committed to working closely with audit staff in their efforts to
obtain needed information and documentation

Estimated Completion Date: This recommendation is considered closed


Recommendation 2: Record a complete disbursement voucher number (or another common
identifier) for all disbursement records in the General Accounting and Finance System - Rehost.

Management Comments: Non-concur Referential integrity back to source Systems and
documentation exists:FBIGAFS-R disbursement transactions with or without a complete voucher
number recorded in GAFS-R GAFS-R records do not always contain a complete voucher number for
disbursements made by another activity and reported through various, interface processes When the
voucher number -is not available or provided to GAFS-R by the source system, other data elements are
used to determine the source, cross reference, and category of the given disbursement transaction
Examples include disbursements for Jnterfund and DESC Fuels. In fact, these types of transactions
were included in the 45 sample items and the supporting documentation provided was accepted as
satisfactory by the DODIG.

        The Integrated Accounts Payable System (IAPS) voucher numbers have 2 positions dropped in
GAFS- R with no impact on the related audit trail. The need for truncating the 2 positions was
discussed and explained to the audit staff

        As of today, DFAS has provided supporting documentation and explanations for 44 of the 45
sample items (41 complete; 3 partial; for She remaining item, records were transferred from a closed
site and documentation has not been located to date). Personnel knowledgeable with the processes,
systems, interfaces, and available documentation were able to track GAFS-R transactions back to the
source systems and supporting documentation for these items

        As stated previously, the limited sample size of 45 items totaling $145,288 does not provide a
sufficient basis for projecting results to the total unrverse of 10,528,467 transactions valued at $131.8
Billion System changes requited to perpetuate a complete vouched number throughout all
disbursement processes, systems, and interfaces would be a significant endeavor, especially for those
systems not owned by DFAS or the Air Force We believe the Report's limited audit scope neither
substantiates nor warrants such an effott

Point of Contact: Deborah Los/Chief, Accounting Requirements Division/DFAS-ADWZ/DE/303
676-8192




                                                    2




                                                  27
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Carmelo G. Ventimiglia
Jeffrey T. Hunter
M. James Herbic
Steven K. Kurker
Christopher S. Yablonski
James D. Hartman, Jr.
Ann Thompson
